         Office of Inspector General




September 21, 2005

ALFRED INIGUEZ
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT:      Audit Report – Surface Transportation – Bulk Mail Center Highway
              Transportation Routes – Pacific Area (Report Number NL-AR-05-012)

This report presents results from our Bulk Mail Center Highway Transportation Routes
audit (Project Number 04YG013NL008). Our objectives were to evaluate the
effectiveness of bulk mail center routes and identify opportunities for cost savings. This
report responds to a request from the vice president, Network Operations Management,
and focuses on routes controlled by the Pacific Area.

The Postal Service could save about $3.1 million over the term of existing Pacific Area
bulk mail highway contracts by canceling, not renewing, or modifying 22 trips. The
savings represent potential funds that could be put to better use and will be reported as
such in our Semiannual Report to Congress. The Postal Service could eliminate or
modify the trips without negatively affecting service because trip volume was low and
mail could be consolidated on other trips. We recommended the vice president, Pacific
Area Operations: (1) verify the actual cancellation, modification, or substitution of the
ten trips identified by Postal Service managers during our audit; (2) verify the actual
cancellation, modification, or substitution of the ten trips with which Postal Service
officials agreed; and (3) reassess the two trips managers feel are still necessary.

Management agreed with our findings and recommendations. They stated that all
20 trip reductions to which they had agreed, had already been made, or would be made
by September 30, 2005. They also stated they would reassess the two remaining trips.
Management’s comments and our evaluation of these comments are included in this
report.

The Office of Inspector General (OIG) considers recommendations 1, 2, and 3
significant, and therefore requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Paul E. Vogel
    Anthony M. Pajunas
    Steven R. Phelps
Surface Transportation – Bulk Mail Center Highway                           NL-AR-05-012
 Transportation Routes – Pacific Area


                                        INTRODUCTION
 Background                    Bulk mail includes magazines, advertising, and
                               merchandise shipped by major mailers like publishers,
                               catalog companies, or online retail companies. It is
                               processed by a system of 21 bulk mail centers and other
                               facilities nationwide. The Postal Service spends more than
                               $500 million annually on contracts to transport bulk mail
                               over highway networks. Contracted routes are controlled by
                               individual Postal Service areas.




   Highway transportation
   contractor departing the
        San Francisco
      Bulk Mail Center
        April 26, 2005.




                               This report focuses on the routes controlled by the Pacific
                               Area and responds to a request from the vice president,
                               Network Operations Management.

 Objectives, Scope,            The objectives of our audit were to evaluate the
 and Methodology               effectiveness of scheduled bulk mail center highway
                               transportation routes and identify opportunities for cost
                               savings.

                               Using Postal Service computer-generated data, we
                               identified 694 trips operated under 84 Pacific Area contracts
                               that had at least one bulk mail center service point. In
                               preparation for our work, we provided area officials and
                               Postal Service managers with the list of Pacific Area
                               contracts we intended to audit. During our work, we
                               interviewed officials at headquarters and in the Pacific Area;
                               reviewed relevant Postal Service policies and procedures;
                               visited the area’s bulk mail centers; contacted the Phoenix
                               auxiliary service facility; interviewed managers and
                               employees; and observed and photographed operations.


                                                    1
Surface Transportation – Bulk Mail Center Highway                          NL-AR-05-012
 Transportation Routes – Pacific Area


                               We consulted with financial analysts, computer analysts,
                               and other subject matter experts; evaluated mail volume
                               and the type of mail carried; considered service standards;
                               and analyzed all 694 trips.

                               We conducted work associated with this report from
                               April through September 2005, in accordance with generally
                               accepted government auditing standards and included such
                               tests of internal controls as were considered necessary
                               under the circumstances. We discussed our observations
                               and conclusions with management officials and included
                               their comments where appropriate.

                               We examined computer data in management’s
                               Transportation Contract Support System and Transportation
                               Information Management Evaluation System. We did not
                               audit or comprehensively validate the data; however, we
                               noted several control weaknesses that constrained our
                               work. For example, the Transportation Information
                               Management Evaluation System had missing records and
                               inaccurate trailer load volumes.

 Prior Audit Coverage          Since September 2002, the Office of Inspector General has
                               worked with the Postal Service to reduce surface
                               transportation. As a result, we have issued 17 audit reports
                               that identified potential savings exceeding $73.6 million over
                               the life of eliminated or reduced transportation contracts.
                               For more detailed information about these audits, see
                               Appendix A.




                                                    2
Surface Transportation – Bulk Mail Center Highway                                NL-AR-05-012
 Transportation Routes – Pacific Area


                                        AUDIT RESULTS
 Contracted Bulk Mail          The Postal Service could save about $3.1 million over the
 Center Highway Trips          term of existing Pacific Area bulk mail highway contracts by
                               canceling, not renewing, or modifying 22 trips. The Postal
                               Service could eliminate or modify the trips without
                               negatively affecting service because trip mail volume was
                               low and mail could be consolidated on other trips. As
                               indicated below, 55 percent of affected trips will expire
                               within 1 year. The other 45 percent have 1 to 3 years
                               remaining.
                                           PROPOSED NON-RENEWALS AND CANCELLATIONS

                                          TRIP             AFFECTED      NUMBER       ESTIMATED
                                        CATEGORY             TRIPS       OF TRIPS      SAVINGS

                                  Contracts expiring
                                  within 1 year             55 percent      12          $1,111,462


                                  Contracts expiring in
                                  1 to 3 years              45 percent      10          $2,012,100

                                  All terminated trips     100 percent      22          $3,123,562


                               Postal Service policy requires transportation managers to
                               balance service and cost. Although managers continually
                               strive to optimize transportation through aggressive cost
                               cutting efforts—such as their breakthrough productivity
                               initiative—transportation requirements are dynamic and
                               constantly change. Consequently, the Postal Service could
                               attain additional savings through further service reductions
                               by not renewing unnecessary trips that are scheduled
                               to expire within one year, or by canceling unnecessary
                               trips that are currently contracted to continue for one to
                               three years. The savings we identified included savings
                               from non-renewable trips, plus savings from trip
                               cancellations net of cancellation fees totaling approximately
                               $67,318.

 Cooperative Effort            As a result of our continuing efforts to partner with and bring
                               value to the Postal Service, we had ongoing communication
                               with Pacific Area officials throughout our audit. We provided
                               the Pacific Area officials with a list of our specific trip
                               proposals, and the officials reviewed each proposal in
                               conjunction with their own assessment of area-wide network
                               requirements. After the area's review, we discussed our
                               proposals and area operational needs with area officials and
                               made appropriate adjustments.

                                                       3
Surface Transportation – Bulk Mail Center Highway                                  NL-AR-05-012
 Transportation Routes – Pacific Area



                               As a result of our cooperative effort, the area agreed with
                               the 20 proposals outlined in Appendices B and C, and
                               agreed to reassess the 2 trips listed in Appendix D, which
                               managers feel are still necessary.

                                        PROPOSED TRIP CANCELLATIONS AND MODIFICATIONS

                                        CANCELLATION             NUMBER                 ESTIMATED
                                          CATEGORY               OF TRIPS   APPENDIX     SAVINGS

                                Postal Service identified trip
                                cancellations or                    10         B        $2,554,965
                                modifications during the
                                audit

                                Proposals with which area
                                officials agreed                    10         C          $525,129

                                Proposals with which
                                managers disagreed                   2         D           $43,468

                                Total                               22                   $3,123,562



 Recommendation                We recommended the vice president, Pacific Area
                               Operations:

                                1. Verify the actual cancellation, modification, or
                                   substitution of the ten trips identified during our audit by
                                   management.

 Management’s                  Management agreed with our recommendation and stated
 Comments                      all trip reductions had already been implemented.
                               Management noted a minor difference between the
                               estimated savings and the actual savings achieved from
                               implementation. They explained that actual savings
                               included a reduction in anticipated cancellation fees.
                               Management’s comments, in their entirety, are included in
                               Appendix E of this report.

 Recommendation                 2. Verify the actual cancellation, modification, or
                                   substitution of the ten trips with which Postal Service
                                   managers agreed and provide the dates action was
                                   taken.




                                                     4
Surface Transportation – Bulk Mail Center Highway                         NL-AR-05-012
 Transportation Routes – Pacific Area




 Management’s                  Management agreed with our recommendation and stated
 Comments                      they were in the process of implementing the recommended
                               changes. They estimated the changes would be complete
                               by September 30, 2005. Management agreed with our
                               estimated savings.

 Recommendation                We recommended the vice president, Pacific Area
                               Operations:

                                3. Reassess the two trips which Postal Service managers
                                   still feel are necessary, and cancel or modify the trips
                                   as indicated by the reassessment or document the
                                   reasons for retaining the trips.

 Management’s                  Management agreed with our recommendation and stated
 Comments                      they would reassess the proposed trip eliminations.

 Evaluation of                 Management’s comments are responsive to our findings
 Management’s                  and recommendations. Regarding management’s response
 Comments                      to recommendation 1, we consider the minor difference
                               between the estimated and actual savings insignificant.
                               With regard to management’s comments in general, we
                               consider management’s actions, taken or planned, sufficient
                               to address the recommendations we made in our report.




                                                    5
Surface Transportation – Bulk Mail Center Highway                                                                                       NL-AR-05-012
 Transportation Routes – Pacific Area



                                                APPENDIX A. PRIOR AUDIT COVERAGE


                                                                                         Number of Trips                  Trips with    Trips with
                                                                            Date Final    Identified for   Potential        which         which       Trips
                                                                             Report       Elimination or    Savings      Management    Management Identified by
                       Report Name                          Report Number    Issued        Modification    Identified      Agreed       Disagreed  Management
Highway Network Scheduling - Pacific Area                   TD-AR-02-003    9/24/2002           158         $4,500,417        76             34           48
Highway Network Scheduling - Northeast Area                 TD-AR-03-002    11/25/2002           18            776,992        10              8            0
Highway Network Scheduling - Capital Metro Area             TD-AR-03-007     3/28/2003           34          1,144,218        20             14            0
Highway Network Scheduling - New York Metro Area            TD-AR-03-008     3/31/2003           32            470,123        12             20            0
Highway Network Scheduling - Southwest Area                 TD-AR-03-010     7/11/2003          249          5,989,082       148            101            0
Highway Network Scheduling - Western Area                   TD-AR-03-013     9/23/2003           70          2,721,530        30             40            0
Highway Network Scheduling - Southeast Area                 TD-AR-03-014     9/26/2003          101         11,352,881        23             24           54
Highway Network Scheduling - Eastern Area                   TD-AR-03-015     9/30/2003          181         10,577,367       128             53            0
Highway Network Scheduling - Great Lakes Area               NL-AR-04-003     3/29/2004           72          5,352,877        48             22            2
Bulk Mail Center Transportation Routes - Great Lakes Area   NL-AR-04-004     9/29/2004           96          7,660,533        49              7           40
Bulk Mail Center Transportation Routes - Eastern Area       NL-AR-05-003     3/17/2005           35          4,791,570        29              6            0
Intermodal Rail and Highway Transportation - Pacific Area   NL-AR-05-004     3/18/2005            0          1,046,240         0              0            0
Bulk Mail Center Transportation Routes - Southeast Area     NL-AR-05-005     3/18/2005           52          6,563,582        52              0            0
Bulk Mail Center Transportation Routes - New York
 Metro Area                                                 NL-AR-05-007     6/9/2005            16          1,499,371        16              0            0
Bulk Mail Center Transportation Routes - Southwest Area     NL-AR-05-008     8/3/2005            79          7,175,912        76              0            3
Bulk Mail Center Transportation Routes - Capital
 Metro Area                                                 NL-AR-05-009     9/2/2005            10            803,060        10              0            0
Intermodal Rail and Highway Transportation Between the
 Pacific and Southeast Areas                                NL-AR-05-011    9/19/2005             0          1,261,308         0              0            0

                          Totals                                 17                           1,203        $73,687,063       727            329          147




                                                                              6
Surface Transportation – Bulk Mail Center Highway                                                                              NL-AR-05-012
 Transportation Routes – Pacific Area


                                                       APPENDIX B
                                     TRIPS IDENTIFIED BY POSTAL SERVICE MANAGERS
                                                   DURING AUDIT WORK

 Effective                    Highway
  Date of       Ending        Contract
   Last         Date of        Route         Trip      Recommen       Origin to     Annual       Estimated       Indemnity       Estimated
 Change         Contract      Number        Number       -dation    Destination   Budget Cost   Contract Cost       Fees          Savings
                                                                    Los Angeles
                                                                    BMC, CA to
                                                                      Phoenix     $   762,021   $   1,524,042      $$$0         $ 1,524,042
                                                        Eliminate
  7/1/2005     6/30/2006       90018       15 and 16                 P&DC, AZ
                                                        roundtrip
                                                                    and Return
                                                                      Margaret
                                                                       Sellers
                                                                     P&DC, CA
                                            825 and     Eliminate
  7/1/2005     12/23/2005      90092                                   to Los     $    64,704   $     258,815      $ $0         $   258,815
                                              826       roundtrip
                                                                      Angeles                                    $000   -
                                                                      BMC, CA
                                                                    and Return
                                                                    Los Angeles
                                            805 and     Eliminate   BMC to San
                                                                                                                      $0$
  7/1/2005     12/23/2005      90093        806; 823       two       Bernardino   $   147,560   $     590,241                   $   590,241
                                                                                                                      -
                                            and 824    roundtrips    P&DC and
                                                                       Return
                                                                      San Jose
                                                                     P&DC, CA
                                            819 and     Eliminate                                                 $       $0
 11/27/2004    6/30/2006       94895                                   to San     $    45,467   $     181,868                   $   181,868
                                              820       roundtrip                                                     -
                                                                     Francisco
                                                                      BMC, CA
              TOTALS                           10                                 $ 1,019,752   $   2,554,965*        $0       $ 2,554,965*

         BMC Bulk Mail Center
         P&DC Processing and Distribution Center
         *Minor rounding differences




                                                                             7
Surface Transportation – Bulk Mail Center Highway                                                                               NL-AR-05-012
 Transportation Routes – Pacific Area



                                                            APPENDIX C
                                          TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                                 POSTAL SERVICE MANAGERS AGREED


     Effective                  Highway
      Date of       Ending      Contract                                                                   Estimated
       Last        Date of       Route        Trip    Recommen-            Origin to           Annual       Contract     Indemnity        Estimated
     Change        Contract     Number       Number     dation            Destination        Budget Cost     Cost           Fees           Savings
                                                        Eliminate
                                                        Monday,         Los Angeles BMC,
     10/2/2004     6/30/2008      90096         801     Tuesday,       CA to Oxnard P&DF,    $   10,490    $    28,847   $    3,497   $      25,350
                                                      Thursday, and            CA
                                                       holiday trips
                                                        Eliminate
                                                        Monday,        Oxnard P&DF, CA to
     10/2/2004     6/30/2008      90096         802     Tuesday,        Los Angeles BMC,     $   10,664    $    29,326   $    3,555   $      25,772*
                                                      Thursday, and            CA
                                                       holiday trips
                                                        Eliminate
                                                                       Los Angeles BMC,
                                                        Saturday,
     10/2/2004     6/30/2006      90198         807    Sunday, and
                                                                       CA to Santa Clarita   $    8,879    $    35,515   $       0    $      35,515
                                                                           P&DC, CA
                                                       holiday trips
                                                        Eliminate
                                                                       Santa Clarita P&DC,
                                                        Saturday,
     10/2/2004     6/30/2006      90198         808    Sunday, and
                                                                        CA to Los Angeles    $    8,879    $    35,515   $       0    $      35,515
                                                                            BMC, CA
                                                       holiday trips
                                                                       Salinas P&DF, CA to
                                                        Eliminate
      7/1/2004     6/30/2008      94892         801   Saturday trips
                                                                       San Francisco BMC,    $    8,289    $    22,794   $    2,763   $      20,031
                                                                                CA
                                                                       San Francisco BMC,
                                                        Eliminate
      7/1/2004     6/30/2008      94892         802   Saturday trips
                                                                       CA to Salinas P&DF,   $    8,296    $    22,815   $    2,765   $      20,050
                                                                                CA
                                                                       Oakland P&DC, CA
     1/22/2005     6/30/2008      94896         813   Eliminate trip    to Marysville P&DF   $   73,395    $   201,836   $   24,465   $     177,371
                                                                                CA
                                                                       Marysville P&DF, CA
     1/22/2005     6/30/2008      94896         814   Eliminate trip     to Oakland P&DC,    $   72,834    $   200,294   $   24,278   $     176,016
                                                                                CA


                                                                            8
Surface Transportation – Bulk Mail Center Highway                                                                                    NL-AR-05-012
 Transportation Routes – Pacific Area



     Effective                  Highway
      Date of       Ending      Contract                                                                         Estimated
       Last        Date of       Route        Trip       Recommen-              Origin to           Annual        Contract     Indemnity   Estimated
     Change        Contract     Number       Number        dation              Destination        Budget Cost      Cost           Fees      Savings
                                                        Eliminate holiday   Phoenix P&DC, AZ to
    10/30/2004     6/30/2006      852L1             3         trips           Wickenburg, AZ
                                                                                                  $     1,189    $    4,755    $      0    $        4,755
                                                        Eliminate holiday    Wickenburg, AZ to
    10/30/2004     6/30/2006      852L1             4         trips          Phoenix P&DC, AZ
                                                                                                  $     1,189    $    4,755    $      0    $        4,755

    TOTALS                                      10                                                $   204,103*   $   586,452   $ 61,323*   $   525,129*

         BMC Bulk Mail Center
         P&DF Processing and Distribution Facility
         P&DC Processing and Distribution Center
         *Minor rounding differences




                                                                                 9
Surface Transportation – Bulk Mail Center Highway                                                                                NL-AR-05-012
 Transportation Routes – Pacific Area



                                                      APPENDIX D
                                    TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                        POSTAL SERVICE MANAGERS DISAGREED




Effective                  Highway
 Date of       Ending      Contract                                                                    Estimated
  Last        Date of       Route        Trip       Recommen-          Origin to           Annual       Contract     Indemnity      Estimated
Change        Contract     Number       Number        dation          Destination        Budget Cost     Cost           Fees         Savings
                                                     Eliminate      Tucson P&DC to
12/25/2004   6/30/2008      85610           9       Monday trips    West Valley L&DC
                                                                                         $    8,993    $   24,732    $   2,998     $    21,734
                                                     Eliminate     West Valley L&DC to
12/25/2004   6/30/2008      85610          10       Monday trips     Tucson P&DC
                                                                                         $    8,993    $   24,732    $   2,998     $    21,734
TOTALS                                      2                                            $   17,987*   $   49,463*   $   5,996     $    43,468

         P&DC Processing and Distribution Center
         L&DC Logistics and Distribution Center
         *Minor rounding differences




                                                                             10
Surface Transportation – Bulk Mail Center Highway        NL-AR-05-012
 Transportation Routes – Pacific Area


                   APPENDIX E. MANAGEMENT’S COMMENTS




                                                    11
Surface Transportation – Bulk Mail Center Highway        NL-AR-05-012
 Transportation Routes – Pacific Area




                                                    12
